       CORPORATION FOR PUBLIC BROADCASTING

             OFFICE OF INSPECTOR GENERAL




   EXAMINATION OF KQED, INC., SAN FRANCISCO, CALIFORNIA,
    COMMUNITY SERVICE AND OTHER SELECTED CPB GRANTS
ACTIVE DURING THE PERIOD OCTOBER 1, 2011 – SEPTEMBER 30, 2013



                   REPORT NO. ASJ1403-1409



                       September 29, 2014
Corporation
                                                                                             Office of Inspector General
for Public
Broadcasting




Date:                  September 29, 2014

To:                    Jackie J. Livesay, Vice President, Compliance

cc:                    Ted Krichels, Senior Vice President, System Development and Media Strategies
                       Bruce Theriault. Senior Vice President, Journalism and Radio

From:                  Mary Mitchelson. Inspector General

Subject:               Examination of KQED. Inc.. San Francisco. California, Community Service
                       and Other Selected CPB Grants Active During the Period October 1. 2011 -
                       September 30, 2013, Report No. ASJ1403-1409

We have completed an examination of KQED Inc. (KQED) Corporation for Public Broadcasting
(CPB) Community Service Grants (CSG) and another selected grant, active during the period
October 1, 2011 - September 30, 2013.1 The objectives were to examine KQED's certifications
of compliance with CPB grant terms to: a) claim Non-Federal Financial Support (NFFS) on its
Annual Financial Reports (AFR) in accordance with CPB Financial Reporting Guidelines
(Guidelines); b) expend CSG funds in accordance with grant agreement requirements; and
c) comply with the Certification of Eligibility (Eligibility) requirements and the statutory
provisions of the Communications Act of 1934, as amended (the Act).

Based on our examination we found:


      •   over-stated NFFS of $2.147.411 which resulted in potential CSG overpayments of
          $197,360 ($134,512 in 2014 payments and estimated potential overpayments of $62,848
          in 2015") reported as funds put to better use;
          questionable production expenditures of $34,988 for noncompliance with grant terms;
          and
          noncompliance with the statutory provisions of the Act for open meetings, open financial
          records, and equal employment opportunity (EEO) documentation requirements.

We recommend CPB management take the following actions, as further detailed in our specific
recommendations:



  We included the Quest Project, Account No. 13763, for the period October I, 2010 -January 31, 2012, in our
testing.
2We calculated this potential overpayment based on CPB*s FY 2014 Incentive Rates of Return for TV and Radio
because the FY 2015 Incentive Rates of Return were not calculated as of the report date, per Exhibit F.
401 Ninth Street, NW
Washington. DC 20004-2129
202.879.9669 202.879.9699 fax

www.cpb.org/oig
      •   require KQED to submit revised Fiscal Years (FY) 2012 and 2013 AFRs, Schedules A
          and C, eliminating ineligible revenues of $2,147,411;
      •   recover $134,512 in excess CSG payments made to KQED in FY 2014 based on NFFS
          reported in FY 2012 and adjust the station’s 2015 CSG based on NFFS reported in FY
          2013 to eliminate an estimated $62,848 in potential FY 2015 overpayments;
      •   require KQED to identify the corrective actions and controls it will implement to ensure
          future compliance with NFFS Guidelines;
      •   provide policy guidance to stations for reporting third party fees for underwriting as
          NFFS revenues;
      •   recover $34,988 in questioned costs and ensure KQED complies with grant terms for
          future CPB funded projects; and
      •   require KQED to submit to CPB its new written policies that explain how the station
          complies with open meetings, open financial records, and EEO requirements of the Act
          to ensure the policies adequately meet CPB requirements.

In response to the draft report, KQED did not agree with our findings dealing with over-stated
NFFS for underwriting third party fees, in-kind contributions, and membership premiums.
However, KQED did agree with $714,000 of $922,109 in findings on over-stated NFFS for
payments. KQED did not agree with our findings regarding questioned costs for budget
reallocations and indirect costs but did agree with questioned payroll costs of $694. KQED
agreed with our findings dealing with the requirements of the Communication Act and took
corrective action. KQED’s written response to the draft report is attached in Exhibit I. We did
not include the exhibits and policies attached to KQED’s written response because they were
extensive. This additional information is available upon request from our office.

This report presents the conclusions of OIG and the findings reported do not necessarily
represent CPB’s final position on these issues. This report contains recommendations OIG
believes would be appropriate to resolve these findings. CPB officials will make final
determinations on the reported findings in accordance with established CPB audit resolution
procedures. Based on KQED’s response to the draft report, we consider recommendations 1(a-e)
and 2(a-b) unresolved, and recommendation 3, related to Act written procedures, resolved but
open, pending CPB’s management decision resolving our recommendations.

We performed this audit based on the Office of Inspector General’s (OIG) annual audit plan
objective to perform reviews of a cross-section of stations and organizations comprising the
public broadcasting system.

We performed our examination in accordance with Government Auditing Standards for
attestation engagements. Our scope and methodology is discussed in Exhibit H.

                                             BACKGROUND

KQED’s3 website states its mission is to serve as a community-supported alternative to
commercial media. KQED operates three public television stations (“KQED,” “KQEH” also
known as “KQED Plus,” and “KQET”) in San Francisco, San Jose and Monterey, and two public
3
    KQED is also known as KQED Public Media for Northern California.


                                                       2
radio stations (“KQED-FM” and “KQEI-FM”) in San Francisco (88.5) and North Highlands
(89.3). KQED also develops content and applications for digital platforms and mobile devices
and distributes its content and services via KQED.org and KQED Education, as well as other
digital and mobile media technology.

KQED’s website highlights its history, identifies its various stations, presents its programming
schedule, provides interactive content; and contains information about membership and benefits,
station operations, and upcoming events and meetings. Some highlights include:

   •   KQED TV went on the air in 1954 and currently produces local and national programs
       collaborating with filmmakers and documentary producers. KQED Public Television 9
       has over 1.5 million household viewers and its digital television channels include KQED
       9, KQED Plus, KQED Life, KQED World, KQED Kids and KQED V-me. KQED
       broadcasts programs from PBS, APT, and other distributors along with its own local
       programs.

   •   KQED Public Radio was founded in 1969 and reaches over 745,000 listeners providing
       information and entertainment composed of locally produced programs, as well as
       productions by National Public Radio, Public Radio International and the BBC.

CPB awards annual CSG grants to public television and radio stations based on the amount of
NFFS claimed by all stations on their AFRs. The CSG calculation process starts with separate
amounts appropriated for the television and radio CSG pools, adjusted by the amount of the base
grants. The TV CSG pool is also adjusted by distance and local service grants and the Radio
CSG pool is adjusted by rural support grants. The funds that remain are called the Incentive
Grant Pools, one is for television and the other is for radio. The Incentive Rate of Return (IRR)
is calculated by dividing the Incentive Grant Pools by the total weighted amount of NFFS
claimed by all television/radio stations eligible to receive incentive grants. The IRR is then
multiplied by the station’s reported NFFS to calculate the incentive award amount of the
station’s total CSG. There is a two-year lag between the reported NFFS and CPB’s calculation
of the FY’s CSG amount. For example, CPB used the NFFS claimed by KQED on its FY 2010
AFR to determine the amount of the CSG the station received in FY 2012.

During our audit period KQED received $9,783,011 from CPB for various grants as itemized in
Exhibit A. KQED reported NFFS of $56,502,861 in FY 2012 and $58,478,318 in FY 2013 per
Exhibit D. KQED’s audited financial statements for the two FYs reported revenues of
$73,688,455 in FY 2012 and $74,647,052 in FY 2013. KQED’s FY begins October 1 and ends
on September 30.

In addition to providing the CSG funds to KQED, CPB funded other project grants; we included
one production agreement for the Quest Project (QUEST) in our testing, Exhibit E. QUEST was
designed to work with six public media station partners (“Hub Stations”) to create a new
operational infrastructure and business model for affordability expanding the production of
QUEST, a science, technology, engineering and math news program, including building new
educational content and tools for students and audiences across the country.




                                                3
                                     RESULTS OF REVIEW

In our opinion, except for the noncompliance issues described below, KQED has complied with
the requirements for the FY 2012 and 2013 TV and radio CSGs (Exhibits B and C) and the
QUEST project (Exhibit E).

We examined KQED’s management’s assertions of compliance with CPB grant requirements:
 a) CSG Certification of Eligibility; b) CSG Legal Agreement; c) AFR Signature Page; and
 d) Certification of Final Financial Accounting for the QUEST project. The CSG Certification of
Eligibility includes KQED’s compliance with AFR/NFFS reporting in accordance with CPB’s
Financial Reporting Guidelines; Communication Act requirements for open meetings, open
financial records, Community Advisory Board, EEO reporting, and donor lists; and discrete
accounting requirements. Management is responsible for compliance with those requirements.
Our responsibility is to express an opinion on management’s assertions about its compliance
based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards for
attestation engagements and, accordingly, included examining, on a test basis, evidence about
KQED’s compliance with those requirements and performing such other procedures as we
considered necessary in the circumstances. We believe that our examination provides a
reasonable basis for our opinion. Our examination does not provide a legal determination on
KQED’s compliance with specified requirements.

Our examination disclosed the following issues of noncompliance with NFFS financial reporting
requirements, CPB grant agreement requirements, and Communications Act requirements:

       •   over-stated NFFS of $2,147,411 which resulted in potential CSG overpayments of
           $197,360 ($134,512 in 2014 payments and an estimated potential overpayment of
           $62,848 in 2015)4 reported as funds put to better use;
       •   questioned production costs of $34,988 for noncompliance with grants terms; and
       •   noncompliance with open meetings, open financial records, and EEO documentation
           requirements.

                            FINDINGS AND RECOMMENDATIONS

OVER-STATED NFFS

Our audit found $2,147,411 in over-stated NFFS on KQED’s FYs 2012 and 2013 AFRs as
presented in the following table and detailed in Exhibit F. As a result, CPB may make CSG
estimated overpayments of $197,360 to KQED ($134,512 overpaid in FY 2014 and an estimated
CSG overpayment of $62,848 in FY 2015). We classified this amount as funds put to better use
for reporting purposes because the funds overpaid to KQED could have been distributed to other
public broadcasting entities.



4
    See footnote 2.


                                                4
                                            Over-Stated NFFS
        Ineligible                                                                           Potential CSG
     NFFS Categories         FY 2012 NFFS         FY 2013 NFFS           Total NFFS          Overpayment5

    Payments                        $752,109               $170,000            $922,109              $110,164
    Underwriting third
    party fees                        551,400               563,711           1,115,111                76,375

    In-kind trades                     56,874                32,540              89,414                  8,934
    Membership
    premiums                                0                20,777              20,777                  1,887
                     Total        $1,360,383               $787,028          $2,147,411              $197,360

KQED management indicated that revenues from ineligible payment sources and some in-kind
trades were due to oversights in preparation of the AFRs and misinterpretations of the
Guidelines. However, station officials did not concur that some in-kind trades, underwriting
third party fees, and membership premiums were ineligible as NFFS.

Further discussion of our findings is presented below.

          Payments Reported as NFFS

KQED reported payments of $922,1096 that did not meet the source criteria for NFFS, i.e.
received from state/local government or educational institution, as follows:

     •    $714,276 in presenting station fee payments;
     •    $117,038 in contract revenue payments; and
     •    $ 90,795 in miscellaneous income for fees and reimbursement payments.

The station provided presenting station services to both public broadcasting entities (PBE’s) and
independent producers to package and deliver programs into the national public television
distribution system. In exchange the station receives fees for these services. It also produced
programs and provided other services and educational material for government, PBE’s, CPB,
educational institutions, foundations, and businesses. KQED classified the fees received for
these services as either contract services or production revenue. Additionally, KQED received
fees resulting from bad debt recovery, miscellaneous other services provided, sales of premiums
to staff, various refunds, or reimbursements as other miscellaneous income.

Presenting Station Fees are defined as exchange transactions in CPB’s Application of Principles
of Accounting and Financial Reporting to Public Telecommunications Entities, May 2005
Edition (Principles). This guidance discusses a contribution versus an exchange transaction
(payment).



5
  Exhibit F shows the detail calculation for TV and radio for each year and IRR.
6
  KQED received $3,231,986 for these categories of payments; all but the questioned $922,109 were properly
recorded on its AFRs.


                                                       5
   A public broadcasting entity sometimes charges an independent program producer for
   introducing a program into distribution among public broadcasters by acting, for example
   as the “presenting station” in the PBS National Program Service.

   …the fee that is received or retained for introducing the program into public broadcasting
   distribution represents an exchange transaction, and not a contribution.

Principles, Section 3.3.

Further CPB Guidelines differentiate the criteria for each revenue form (contribution or a
payment) and its eligibility as NFFS and define eligible source criteria for each.

   NFFS begins with revenues reported in the financial statements, but not all revenue is
   NFFS…in terms of NFFS criteria, revenue is divided into two distinct categories:
   contributions and payments. With the exception of the recipient criteria (see Sec. 2.3),
   the criteria for contributions are not the same as the criteria for payments. A contribution
   is an unconditional transfer of cash or other assets or settlement or cancellation of its
   liabilities in a voluntary nonreciprocal transfer from one entity to another… A payment,
   on the other hand, is a reciprocal transfer (i.e., an exchange transaction) of cash or other
   assets in which each party receives and sacrifices approximately equal value.

Guidelines, Section 2.2.

   The universe of eligible sources for contributions is relatively large: any source except
   the federal government or another public broadcasting entity, while the universe of
   eligible sources for payments in exchange transactions is relatively small: only eligible
   sources are state and local governments and educational institutions. Educational
   institutions are defined as degree-granting institutions.

Guidelines, Section 2.3.2.

Because the presenting station fees, contract revenues, and miscellaneous income from fees are
payments and the payments were not received from eligible sources, the payments are ineligible
as NFFS.

KQED did not interpret CPB Guidelines to include presenting station fees as payments and
therefore did not apply the source criteria to determine eligibility for NFFS when preparing the
AFRs. As a result, KQED erroneously claimed the fees as NFFS in FYs 2012 and 2013. Station
officials agreed that the contract revenue and some of the miscellaneous fee payments are
ineligible as NFFS. KQED informed us that some of the miscellaneous fees were bad debt
recovery for underwriting contributions, and underwriting is eligible as NFFS. However, we did
not concur, as some of the bad debt recovery was for payments, and we could not determine if
the bad debt related to underwriting was previously deducted from NFFS. CPB revised the AFR
reporting format in FY 2013 to clarify reporting that separately identifies fees for services that
are ineligible as NFFS. KQED properly excluded those types of payments from NFFS in FY
2013.



                                                6
Ineligible payments totaled $922,109 and will result in a CSG overpayment of $110,164
($89,426 overpaid in FY 2014 and an estimated potential overpayment of $20,738 in FY 2015).
See calculations in Exhibit F.

        Underwriting Third Party Fees

Our review of underwriting contributions found KQED claimed $1,115,111 as NFFS for third
party fees retained by National Public Media (NPM),7 a for profit entity, to obtain donor
underwriting contributions. Because the station did not receive the full value of the donations
received by NPM or take constructive receipt of the $1,115,111 retained by NPM, these funds
should not be eligible as NFFS, even though underwriting is a contribution and therefore eligible
as NFFS.

The Guidelines provide criteria regarding eligible recipients for contributions.

    Generally, contributions or payments received in part or in whole by third parties for the
    benefit of the public broadcaster but for which the public broadcaster does not take
    constructive receipt will neither meet financial statement revenue recognition criteria nor
    NFFS criteria.

Guidelines, Section 2.3.2.

As background, KQED processes underwriting contributions in three different ways. It receives
contributions directly from donors and recognizes the full amount of the donation as a
contribution and as NFFS. It also receives contributions processed through ad agencies. The
station recognizes the net amount received from the ad agency as a contribution and as NFFS
after the ad agency deducts its fee (typically 15 percent). KQED’s third method for receiving
contributions is through NPM. NPM either contracts directly with an underwriter or with the
underwriter’s ad agency and then places a work order with KQED to air the underwriting credits.
KQED recognizes as NFFS the gross amount of contributions processed by NPM, even though
NPM retains its commission (15-20 percent) and remits only the net amount to KQED. This is in
contrast to how KQED handles contributions from an ad agency where the fees paid to the ad
agency are not recognized as revenue or NFFS. KQED expenses NPM commissions but not ad
agency fees.

KQED entered into a National Radio Underwriting Agreement with NPM whereby the station
appointed NPM as its exclusive national underwriting placement representative. As NPM’s
website notes, it is in the business to not only represent the station’s underwriting inventory, but
it also creates sponsorship packages to achieve the underwriter’s national or regional presence by
placing underwriting within local public media stations and the national network. Therefore,
NPM’s role is similar to that of an ad agency.



7
 NPM website states “National Public Media is a subsidiary of National Public Radio (NPR), owned in partnership
with PBS and WGBH, the largest producer in public television. We are a corporate sponsorship sales team for all
NPR network stations, PBS stations and the digital assets of NPR and PBS.”


                                                       7
The station treats NPM as an independent sales contractor representing the station’s inventory of
underwriting with the same access to the station’s inventory as its internal account executives.
KQED considers NPM commissions, which the station does not take receipt of, the same as
commissions paid to its internal account executives on underwriting contributions collected and
expensed as a cost of underwriting in its financial statements.8

The station set uniform “gross” pricing for underwriting prior to making deductions for ad
agency fees and applied this pricing mechanism for the broadcast of credits to NPM donors, as
well as to the station’s direct donors. The station said it used generally accepted accounting
principles (GAAP) accounting methods for recognizing gross revenues (net contributions) and
believes it has fairly presented NFFS.

CPB’s Guidelines do not specifically address ad agency or NPM fees under its guidance on third
party recipient and constructive receipt of contributions, therefore the station has recorded
revenue based on its interpretation of GAAP requirements. 9 CPB does provide guidance on
handling auctions and other special events that similarly have direct costs associated with
receiving the donor’s contribution.10 CPB’s auction and special events guidelines require that the
expenses incurred to receive these contributions be deducted from NFFS, no matter how they are
treated for financial reporting purposes.

With the increasing collaboration efforts to promote public media (e.g., use of NPM), to ensure
the consistent treatment of NPM and agency fees across the public broadcasting community,
CPB should provide specific guidance for the treatment of NPM and ad agency fees, where the
costs of these services are offset against contributions received by third parties consistent with
the intent of CPB’s Guidelines, Section 2.3.2.

The direct third party fees of $1,115,111 retained for underwriting but claimed as NFFS result in
CSG overpayments of $76,375 ($39,152 overpaid in FY2014 and an estimated potential
overpayment of $37,223 in FY 2015), as calculated in Exhibit F.

         In-Kind Trades

In our examination of in-kind trades we found 3 transactions totaling $89,414 of 12 tested, were
not eligible as NFFS because they were either exchange transactions,11 policy exclusions, or
unfulfilled trade amounts. In addition, two of the three transactions did not meet CPB’s
valuation or documentation requirements for in-kind contributions.

8
  Internal Account Executives generally earn 4-6 percent commissions on underwriting whereas NPM commissions
are 15-20 percent.
9
  Our audits of two other public broadcasting stations that used NPM services found that these stations treat NPM
fees the same as ad agency fees and exclude the fees (direct third party costs) from revenue and NFFS.
10
   Guidelines AFR Line 14 special fundraising instructions state: “Only net special fundraising revenues (the gross
special fundraising revenues less all direct, third-party expenses for the event) are eligible as NFFS.”
11
   Guidelines, Section 2.2 defines an exchange transaction as a payment, a reciprocal transfer of cash or other assets
in which each party receives and sacrifices approximately equal value. Section 2.5.2 provides additional guidance
for advertising and underwriting determination for NFFS. Advertising is considered an exchange transaction not
meeting criteria for payments and not eligible to be included as NFFS.



                                                          8
CPB’s Guidelines exclude several types of trades from NFFS for policy reasons. These include:

   Promotional items - Donated promotional items such as tickets to performances… are not
   eligible as NFFS.

   Contributions in quid pro quo transactions – If the station exchanges something of value
   other than underwriting for an in-kind contribution, then the fair value of what the station
   gives the contributor must be deducted from the fair value of the contribution received to
   determine the NFFS value of the transaction. There is only NFFS value in the transaction
   if the fair value of the contribution received by the station is greater than the fair value of
   any goods or service the station gives in return to the donor.

Guidelines, Section 2.4.2.

We found that KQED entered into trade agreements with donors that provided local advertising,
tickets, dining passes, or other goods and services in exchange for underwriting credit. More
specifically, the tickets and the quid pro quo web advertising transactions are both excluded from
NFFS for policy reasons and were not eligible to be reported as NFFS.

The Guidelines also stipulate valuation and documentation requirements for eligible in-kind
donations. These include:

   . . . the donor’s usual and customary fees charged to a paying customer for equivalent goods
   and services must serve as the basis for determining fair value. . . .

Guidelines, Section 2.6.3.

   . . . the Grantee records the fair value of the in-kind contribution received based on the
   donor’s/sponsor’s valuation, NOT based on a value from a “rate card” to the underwriting
   spots acknowledging the donor’s in-kind contribution . . . .

Guidelines, Section 2.6.6.

   Trade underwriting agreements or contracts do not satisfy CPB’s documentation
   requirements for in-kind contributions claimed as NFFS. A trade underwriting agreement
   is a promise to give that confirms only the intent to trade an in-kind contribution; it does
   not demonstrate that an in-kind contribution was actually received by the station.
   Instead, Grantees need to secure and retain documentation from the underwriter that is
   tantamount to a receipt for the goods or services it received and claimed as NFFS. In
   order to satisfy CPB’s documentation requirement the documentation must originate from
   the donor and it must contain the following elements:

   •   A description of the goods or services donated
   •   The date(s) of the donation
   •   The value of the donated goods or services and the method of valuation (e.g.,
       lawyer’s hourly rate x hours worked)



                                                 9
       •   Explicit statement of the donors intent to donate or trade the goods or services
       •   Signature, name and title of the donor or donor’s representative.

Guidelines, Section 2.6.4.

To illustrate, one $50,000 trade agreement ($42,500 claimed as NFFS)12 for local advertising and
merchandise and/or services included tickets and gallery passes (i.e., VIP guests or to be used as
promotional giveaways), items which are excluded from NFFS for policy reasons. Additionally,
the trade agreement did not provide specific donor valuation for the tickets, passes, or other
services donated as required by CPB’s Guidelines. Further, KQED did not receive
documentation from the donor acknowledging the fulfilment of the trade agreement.

KQED officials did not agree that the trade should be excluded from NFFS because the donor
provided other services besides the tickets, e.g., printing KQED’s logo on the back of tickets
along with other ads on posters, banners, newsletters, playbills, brochures, other printed
materials, and websites. Station officials subsequently provided the donor’s valuation, which
included $5,300 for tickets and passes; however, the valuation was for the FY 2013 trade
agreement and not the FY 2012 trade revenue we questioned. At the time of our draft audit,
KQED indicated it is in the process of getting fulfilment documentation to support this trade.
KQED did however exclude a similar trade from NFFS in FY 2013 after receiving guidance
from CPB.

In another in-kind trade received for local advertising, we questioned $32,540 in FY 2013 NFFS
for the exchange transaction portion of the trade. The donor received quid pro quo benefits for
on-line web advertisements on KQED’s website. KQED typically excludes donations for on-
line web advertisements from NFFS. In FY 2013 the station misinterpreted the Guidelines and
did not exclude the questioned exchange portion of the trade from NFFS as it had done in prior
years.

Finally, in the third trade we questioned $14,374 in FY 2012 NFFS for a donor’s unfulfilled
trades. KQED recognized NFFS based on KQED’s rates and underwriting aired. The donor did
not complete all of the trade and the trade receivable was written off at FY 2012 year end.
Therefore, the station recognized the in-kind value of the trade at its rates as NFFS but did not
receive any donated value for the unfulfilled trade.

Station officials said they did not see anything in CPB’s Guidelines that excluded the unused
trade from NFFS reporting. Since KQED aired all the underwriting credits per the trade
agreement KQED asserted the unfulfilled trade is an expense and the total value of the trade
agreement should be eligible as NFFS. We disagree because KQED did not actually receive that
contribution.

The ineligible in-kind contributions transactions totaled $89,414, resulting in CSG overpayments
of $8,934 ($5,935 in FY 2014 overpayments and an estimated potential overpayment of $2,999
in FY 2015), as calculated in Exhibit F.


12
     KQED properly excluded $7,500 from NFFS for its on-line web advertising as the exchange portion of the trade.


                                                         10
       Membership Premiums

Our review of station board minutes and accounting records identified $20,777 in membership
benefits claimed as NFFS. Membership benefits included invitations to events such as
performances, dinners and luncheons. These events are in essence a “Thank-You” gift or
premium cost of membership. KQED did not deduct these event costs from contributions
claimed as NFFS. The Guidelines provide instructions for reporting membership contributions
and excluding high end premiums that are not of insubstantial value from NFFS.

   Grantees frequently provide “thank you gifts” (a.k.a “premiums”) in exchange for
   membership contributions…Thank you gifts may be anything of value from low-end
   premiums…to high-end premiums (e.g. boxed set CDs…gourmet foods and wine, tickets
   to performances, dinners or other events).

Guidelines, AFR Instructions line 10.1.

The IRS describes these as quid pro quo contributions (i.e., premiums), and CPB follows IRS
criteria for quid pro quo contributions. CPB requires premiums that are not of insubstantial
value must be excluded from NFFS.

The station held an event on May 2, 2013 and invited 200 Signal Society and 60 Producer’s
Circle level members (major donors). The cost of the event was $20,777. The station’s website
states “To thank you for supporting our mission, Signal Society and Producer’s Circle donors
receive enhanced benefits.” Included in these benefits were “invitations to Signal Society-only
special events… and receptions with public media personalities.” Additionally, Producer’s
Circle donors receive the same benefits as Signal Society donors benefits, including “invitations
to intimate events with public media personalities…”

KQED considered this event as stewardship of major donor members to inform them of current
and future content at KQED and not a “thank you gift, premium or fundraising event.”
Accordingly, it did not provide donors with quid pro quo amounts for tax purposes or exclude it
from NFFS. Station officials stated there was no way to put an individual value on these events
as it may invite a certain number of donors, but only some show up, therefore it could not
determine an individual quid pro quo amount to give to the donor. Additionally, the station said
these donors were invited to several events throughout the year and they may or may not attend
and are not required to attend, nor is KQED obligated to give them anything.

We concluded the Guidelines require the costs of this event be excluded. The $20,777 in event
costs overstated membership donations resulting in an estimated potential FY 2015 CSG
overpayment of $1,887, per Exhibit F.




                                               11
       Recommendations

1) We recommend CPB management take the following actions:

   a) Require KQED to submit revised AFRs eliminating ineligible revenues for Fiscal Years
      2012 and 2013;

   b) Recover $134,512 in excess CSG payments made to KQED based on the FY 2012
      reported NFFS;

   c) Reduce FY 2015 CSG payments based on the revised FY 2013 AFR and recover the
      potential overpayment estimated as $62,848;

   d) Require KQED to identify the corrective actions and controls it will implement to ensure
      future compliance with NFFS Guidelines; and

   e) Provide policy guidance to stations for reporting third party (NPM and ad agency) fees as
      NFFS revenues.

       KQED Response

Payments Reported as NFFS

 In response to our draft audit, KQED acknowledged that it did not correctly report $714,000 of
presenting station fee payments in FYs 2012 and 2013 based on its clearer understanding of
CPB’s Principles of Accounting that were not specifically addressed in CPB’s Guidelines. The
station is revising its internal procedures for AFR reporting so this error does not happen again.
For the over-stated $117,038 in contract revenue payments, KQED said it interpreted CPB
Guidelines for treatment of service contract revenues consistently, but CPB’s revision of the
AFR in 2013 clarified that fees for services were ineligible as NFFS, and KQED properly
excluded them in 2013.

Underwriting Third Party Fees

Station officials disagreed with the proposed adjustment of $1.1 million in NPM commissions.
KQED stated that CPB provided no guidance on the treatment of underwriting placement fees
and therefore it recorded the underwriting revenue placed by NPM and the related commission
expense based on the economic substance of the transaction in compliance with GAAP. The
station cited FASB guidance for principal agent consideration for recognizing revenue and
applied this guidance for the NPM transactions and reported the gross revenues. KQED
management further stated that NPM is an independent contractor who acts as KQED’s
representative, similar to its internal account executives that sell KQED underwriting inventory
and are eligible for commissions. KQED reports the gross internal underwriting sales and
expenses the commissions paid to its internal account executives. KQED did the same for NPM.
It recognized the contributions processed by NPM as revenues and expensed the commissions
paid for its services.



                                                12
KQED officials stated that constructive receipt was not applicable as the economic substance of
the transaction was adhered to in its treatment of the commission expense. Further, KQED
stated that it could change its contract with NPM and have NPM remit the total underwriting it
received from the donor to KQED. KQED would then pay NPM its commission. As a result,
the economic substance would not change; the total contributions received are revenues and the
commissions are expenses.

In-Kind Trades

KQED management did not agree with two of the three proposed in-kind trade NFFS
adjustments totaling $89,414. The station said that the first trade was for $50,000 ($42,500
claimed as NFFS) included both eligible and ineligible donated amounts, and requested that the
NFFS adjustment be revised to include only $17,500 as the ineligible portion. Additionally,
KQED stated that it had omitted $29,000 in eligible NFFS for the trade with the same donor in
2013 and requested CPB to now accept it as eligible.

KQED agreed with the second NFFS adjustment for $32,540 in over-stated NFFS and stated it
was due to an oversight in reporting. Finally for the third trade, KQED reiterated that it did not
agree with the audit adjustment related to the $14,374 of unfilled trades. KQED said CPB did
not provide policy guidance for unfilled trades and said by airing the underwriting credits it was
entitled to the trade revenue.

Membership Premiums

Management did not agree with the $20,777 NFFS adjustment for membership premiums and
reiterated that the amount in question should not be considered a thank you gift because the
primary purpose of the event was to keep major donors informed about the station’s
programming and services and to meet and greet staff. Further, it stated that there was no fair
value that could be assessed to the donor at the time of the contribution and could not be
considered an exchange transaction i.e., no quid pro quo.

       OIG Review and Comment

Based on KQED’s response we consider recommendations 1(a-d) unresolved pending CPB’s
management decision. Our evaluation of KQED’s response by finding type is presented below.
Recommendation 1(e) was directed to CPB management and is unresolved pending CPB’s
management decision.

Payments Reported as NFFS

KQED acknowledged that CPB’s FY 2013 AFR guidance clarified that fee for services were
ineligible as NFFS and presenting station fees were also ineligible per CPB’s Principles of
Accounting. KQED’s response did not address the $90,795 in over-stated miscellaneous income
for fees and reimbursement payments. As a result, our finding totaling $922,109 in over-stated
NFFS for payments remains unchanged.




                                                13
Underwriting Third Party Fees

We acknowledge KQED’s position regarding FASB and GAAP financial statement reporting,
however, that does not change our position on interpreting CPB’s guidance to exclude third party
direct costs from NFFS. We also acknowledge that NPM was representing KQED in soliciting
underwriting contributions, and the treatment of commissions on those contributions is not
specifically addressed in CPB Guidelines for inclusion as NFFS. The Guidelines do provide a
definition of eligible recipients that includes contributions received by third parties for the
benefit of the public broadcasters. This definition states that public broadcasters cannot claim as
NFFS contributions received by third parties when the station does not take “constructive
receipt” of the funds received by the third party. Constructive receipt is not further defined in the
context of NFFS in the Guidelines.

CPB’s guidance on third party recipients and the constructive receipt of funds remitted to the
station by third parties needs to be clarified. CPB’s more specific guidance on auctions and
special events require all third party direct costs associated with the auction or special event be
excluded from NFFS no matter how it is treated in the financial statements. In contrast, the third
party recipient guidance under Section 2.3.2 is less specific and has led to varying
interpretations. We have found in two other audits that stations are excluding the commissions
paid and retained by NPM from station revenues and in the subsequent NFFS reporting. The
lack of specificity in CPB’s guidance to address the direct costs of third party fundraising by
NPM and ad agencies has contributed to this inconsistency. Because KQED reported NPM’s
gross underwriting receipts as NFFS, without deducting the direct costs associated with the
fundraising (NPM fees), as required in CPB’s similar third party guidance on auctions and
special events, we find that NPM fees should have been excluded from KQED’s NFFS.
Therefore, we have not changed the $1,115,111 in questionable NFFS for third party recipient
fees.

In-Kind Trades

Regarding KQED’s response to unqualified in-kind trades, we agree with KQED’s response for
the first trade of $42,500 that $17,500 of the trade would be eligible for NFFS, if we received
documentation of the fulfillment of that trade as required by CPB guidance, i.e., a letter from the
donor on its letterhead acknowledging the donation and valuation. We did receive copies of
KQED’s website showing sponsorship of the donor’s 2013 event, but nothing directly from the
donor and nothing for events in 2012. In addition, although the station subsequently provided a
breakout of the donated trade to allow for eligible and ineligible donated valuation, it was for
2013 and 2014. The $42,500 in overstated NFFS was for 2012.

For the second trade, KQED agreed that NFFS was over-stated by $32,540. For the third trade,
we do not agree that the $14,374 unfilled trade was eligible as NFFS. As stated previously, CPB
Guidelines value the donated trade as the fair value received not the value of the stations rate
card for credits aired. Since KQED did not receive all the trade advertisements per the
agreement and subsequently wrote off the receivable, it did not receive a donation that was
eligible for NFFS. As a result, our finding on over-stated in-kind trade NFFS of $89,414
remains unchanged.



                                                 14
Membership Premiums

Regarding membership premiums, based on our review of board minutes, corresponding
expenses for the event identified in our finding above, and KQED’s website describing benefits
associated with the level of membership of those invited to this event, we concluded that there
was a fair value benefit received by the attending members. We also note that under GAAP,
KQED would be required to assess the benefit the donor receives related to KQED’s various
levels of membership donations, including assessing the fair value received for the fair value
returned in order to determine whether these transactions are contributions, exchanges, or a
combination of both. Further, NFFS Guidelines require that benefits of more than an
insubstantial value be considered premiums or thank you gifts and are not eligible as NFFS. As
a result, we did not change our finding on questionable membership premiums of $20,777.

QUESTIONED COSTS

Our review of the QUEST production grant identified questioned costs of $109,340. We
questioned these items due to a lack of compliance with grant requirements as discussed further
below. CPB’s portion totaled $34,988 per Exhibit G. Specifically, we found:

   •   $66,788 (2.2 percent) in budget category reallocations that were not approved by CPB in
       writing. CPB’s portion totaled $21,372.
   •   $40,382 in indirect costs charged that were not allowable because “third party” sub-
       recipients’ direct costs were included in the base used to calculate indirect cost charges.
       CPB’s portion totaled $12,922
   •   $2,170 ($1,887 in payroll and $283 related overhead costs) that was not a QUEST project
       cost. CPB portion totaled $694.

       Budget Reallocations

Our comparison of the budget to actual expenditures found that KQED did not receive written
approval from CPB for budget reallocations or variances over $5,000 or 25 percent of a single
budget category. Further, KQED did not report on all budget variances in accordance with grant
terms.

The grantee committed to the obligations and requirements in the grant, and in the Terms and
Conditions for Television, Radio and Other Media Production Grants (Terms and Conditions).
This commitment included complying with budget and financial reporting requirements,
including the requirement that changes to the budget be approved for some reallocations and the
form of financial reports to be submitted to CPB.

   Changes to the Budget. Once a Budget has been approved… the Grantee may make
   reallocations among Budget line items or categories (except those covering “above the
   line” salaries, equipment, and general administrative/overhead expenses) without CPB’s
   approval so long as no such reallocation involves an increase or decrease in any single
   Budget category in excess of the greater of 25% of such category or $5,000… .Each




                                               15
   Grantee must specifically identify, report and explain any and all Budget reallocations in
   its interim and final financial accounting to CPB.

Terms and Conditions, 4.D.

   Form of Financial Reports. All financial reports must:

   ( i) set forth the amounts originally provided in the Budget for each line item and the
   amounts expended under each line item to date;
   ( ii) specifically identify and explain any variances in excess of the limits set forth in
   Section 4(D) hereof (both in dollars and percentages) from the Budget that exist or are
   expected;
   (iii) include a certification that the Grant Project can be completed on schedule and
   within the Budget or provide a detailed explanation setting forth the reasons why the
   Grant Project may not be completed on schedule or within the Budget.

Terms and Conditions, 4.K.

KQED certified a final financial report with variance amounts reported and explanations for
some of the variances. KQED’s interim financial reports did not identify variances or potential
budget reallocations as required. KQED agreed that it did not receive written approval from
CPB for budget reallocations but said it did report relevant variances in its interim and final
reports. Further, KQED said CPB approved the reports and made grant payments, so the grantee
was not made aware by CPB of any noncompliance issues and did not agree that these budget
reallocations should be questioned. We did not find evidence of approval of KQED’s budget
reallocations in CPB’s contract file.

These unapproved budget reallocations totaled $66,788. CPB’s portion was $21,372, per Exhibit
G.

       Indirect Costs

Our review of the indirect costs charged to the QUEST project found that the total direct costs of
sub-recipients (6 Hub stations, $419,216) were included in the base used to calculate the
project’s indirect cost charges. Sub-recipients generally do not receive any benefit from an
organization’s overhead activities, and if they do it is at a significantly reduced rate.

Since the QUEST project also received federal funding from the National Science Foundation
(NSF), the indirect cost methodology used to charge indirect costs should be consistently applied
to both the federal and CPB funds. Federal guidelines permit grantees to apply the indirect cost
rate to the first $25,000 of a sub-recipient grant or sub-contract. We applied this methodology in
our calculation of questioned indirect costs totaling $40,382, per Exhibit G. CPB’s portion was
$12,922.

CPB’s Terms and Conditions define the types of records a grantee must keep and the authorized
uses for its funds.



                                                16
   Records. A Grantee must keep books, records, and accounts relating to the Grant and the
   Grant Project sufficient to:
    (i) enable CPB to verify all direct costs, overhead, and administrative allocations
   associated with the Grant Project;
    (ii) disclose fully the amount and use of the proceeds of the Grant, the Total Project
   Cost, and the amount and nature of any portion of the Total Project Costs supplied by
   sources other than CPB; and
    (iii) permit an effective audit.

Terms and Conditions, 4. G.

    Authorized Uses of CPB Funds. No Grantee may apply amounts received under a Grant
    to any purpose other than actual costs incurred in the performance of the Grant Project in
    accordance with its Budget.

Terms and Conditions, 4. F.

Federal OMB Circular A-122, Cost Principles for Non-Profit Organizations, General
Principles, stipulates that factors affecting allowability of costs under federal grants.

   b. conform to any limitations or exclusions set forth in these principles or in the award as
   to types or amount of costs items.
   c. be consistent with policies and procedures that apply uniformly to both federally
   financed and other activities of the organization.

OMB Circular A-122, Section A.2.

A-122 further defines direct and indirect costs and allowable methodologies for claiming indirect
costs.

   The distribution base may be total direct costs (excluding capital expenditures and other
   distorting items, such as major subcontracts or subgrants), direct salaries and wages, or
   other base which results in an equitable distribution.

OMB Circular A-122, Section D.2.c.

A-122 also provides guidance on exclusions for subgrants and subcontracts under the multiple
allocation base method.

   Distribution basis. Indirect costs shall be distributed to applicable sponsored awards and
   other benefiting activities within each major function…salaries and wages, fringe
   benefits, materials supplies, services, travel, and subgrants and subcontracts up to the first
   $25,000 of each subgrant or subcontract (regardless of the period covered by the sub-
   grant or subcontract).

OMB Circular A-122, Section D.3.f.



                                                 17
OMB’s guidance recognizes that sub-recipients do not receive the same level of overhead
support as internal KQED activities. KQED’s indirect cost rate was based on its actual costs in
its audited financial statements (e.g., general and administrative costs that include payroll, human
resources, finance, information technology, and the executive office). However, KQED included
its sub-recipient direct costs in the base it used to calculate the project’s indirect costs, resulting
in a disproportionate amount of KQED’s indirect costs being charged to this project. As a result,
we have applied the Federal guidelines and questioned $40,382 in indirect costs. CPB’s portion
totaled $12,922.

KQED officials said it charged indirect rates based on the approved grant budget and it believes
these costs are allowable under the agreement. KQED further explained that it applied Circular
A-122 guidance in developing its indirect cost rate and that its actual rate was greater than the 15
percent authorized in the grant budget.

       Payroll Costs

Our testing of 37 expenditures found one transaction where an employee’s timesheet (72 hours)
was erroneously charged to the QUEST project for $3,672. We found that 35 hours ($1,785)
was applicable to the QUEST project but the remaining 37 hours ($1,887) were incurred for
other projects. As a result, we questioned $2,170 ($1,887 plus $283 for indirect costs) in project
costs. CPB’s portion totaled $694, per Exhibit G.

    Authorized Uses of CPB Funds. No Grantee may apply amounts received under a Grant
    to any purpose other than actual costs incurred in the performance of the Grant Project in
    accordance with its Budget.

CPB’s Terms and Conditions, 4. F.

KQED officials explained that the employee worked on the CPB QUEST project, but he
erroneously miscoded his timesheet to the inactive QUEST project number for 35 hours and did
not identify a specific project for the remaining 37 hours. KQED recharged the entire timesheet
72 hours (80 less 8 hours for paid time off) to the CPB QUEST project without allocating the 37
hours to the non-QUEST activity.

       Recommendations

2) We recommend CPB management:

   a) recover $34,988 in questioned CPB funds; and

   b) ensure KQED adequately explains future budget modifications and obtains CPB’s written
      consent to revise budget amounts in accordance with grant agreement terms.




                                                  18
       KQED Response

KQED management disagreed with the budget reallocations and indirect cost findings but agreed
with the questioned payroll cost finding.

Budget Reallocations

KQED agreed that it should have requested advance approval from CPB on budget changes per
the grant agreement, however it does not agree with the proposed adjustment of $21,372. KQED
further stated that it had submitted three financial reports to CPB along with narratives and none
had been denied or returned with questions regarding line item variances. Thus, KQED inferred
that the variances were approved.

Indirect Costs

Station officials did not agree with the draft report finding questioning $16,517 in indirect costs
on sub-recipients and a contractor costs on the QUEST project. KQED did not agree that the
indirect costs related to the consultant contractor should be questioned because the contractor
was a vendor and cited OMB Circular No. A-133 Section B 210. KQED stated that federal
guidelines permit grantees to apply indirect cost rate to contractors (consultants). Further, it
stated indirect costs were charged on the federal NSF grant contractor base costs. Additionally,
KQED referenced OMB Circular No. A-122, Section A.2 stating that other contractors costs
incurred on the QUEST project do not apply because they are not “major subcontractor or
subgrants.” They acted as vendors and as such could be charged the indirect rate.

Finally, KQED stated that since CPB approved the QUEST budget, with a fifteen percent
indirect rate charged on both contractor and sub-recipients direct costs, it complied with the
terms and conditions of the grant and the indirect costs were authorized.

Payroll Costs

KQED agreed with the $694 in questioned payroll costs, stating that it did not have additional
documentation to support the charge to the QUEST project.

       OIG Review and Comment

Based on KQED’s response we consider recommendation 2(a) unresolved, pending CPB’s
management decision. Recommendation 2(b) is directed to CPB management and we consider it
unresolved pending CPB’s management decision. Our evaluation of KQED’s response by
finding type is presented below.

Budget Reallocations

KQED’s response to the draft report acknowledged it should have requested advance approval of
its budget changes but did not agree the budget variances should have been questioned, because
CPB approved payments for the project and did not request an explanation for the budget



                                                 19
variances. Since CPB did not formally approve the budget modifications in accordance with
grant terms, questioned costs of $21,372 for budget reallocations remain unchanged, pending
CPB’s management decision.

Indirect Costs

Based on KQED’s response, we reduced our questioned indirect costs for consultant contractor
costs by $3,595, because the consultant could be classified as a vendor under OMB Circular No.
A-133. We made this correction in our overall conclusion and in the finding presented in this
report. We do not agree that the remaining questioned indirect costs of $12,922 for sub-grantee
Hub costs can be classified as vendors.

Further our review of the QUEST-NSF Project Expenses budget report for a prior period,
presented as Exhibit F to KQED’s attached response, indicated that no overhead was to be
charged on sub-contracts. Since KQED did not provide us with the NSF QUEST budget for our
audit period to verify that all sub-grant costs were also excluded from indirect costs during our
audit period, we applied the Federal guidelines to allow a $25,000 limit to the cost base used to
calculate indirect costs. We do not agree that the full Hub sub-grantee costs should be included
in the base used to claim indirect costs, because the Hub’s did not receive services from many of
the cost pools included in the indirect cost allocation methodology. As a result, the $12,922 for
sub-grantee Hub indirect costs remains questioned, pending CPB’s management decision.

Payroll Costs

KQED’S response acknowledged that no additional documentation could be found to support the
37 hours charged to the QUEST project. As a result, the $694 in questioned payroll costs remain
unchanged.

COMMUNICATIONS ACT NONCOMPLIANCE

Our examination found that KQED did not fully comply with the statutory provisions of the Act
or the CPB Certification Requirements for Station Grant Recipients (Certification Requirements)
for establishing policy documentation to explain how it complied with open meetings, open
financial records, and EEO requirements under the Act.

       Documented Procedures

Our examination found that the station did not have written policies documenting its open
meetings, open financial records, and EEO compliance practices. KQED officials explained to
us how the station complied with these requirements, but agreed it did not have written
procedures during the audit period.

The Act provides that stations have open meetings, open financial records, and meet EEO
requirements. CPB Certification Requirements explain the Act and require each station to
develop documentation indicating the manner of compliance.




                                               20
   Each station,…is to develop documentation indicating…for example, the recognition of
   the open meeting provision by the relevant boards and committees, the procedure for the
   open meetings, the method used to give reasonable notice to the public, examples of
   notices of open meetings, examples of statements of explanation for closed meetings,
   and…meetings. And, the type of records made available for public inspections…, the
   mechanisms by which the records are made available…, and any limitations placed on
   access to the file by the entity.

CPB Certification Requirements Section V, Open Meetings and Open Financial Records.

CPB also requires stations to meet EEO requirements and document its compliance.

   Each licensee or permittee of a public broadcast station… is to develop documentation
   that may be used to verify the statistical employment information reported to CPB
   through the SABS or SAS and/or included in the public record. In addition, each station
   should develop documentation indicating the manner of compliance with public records
   requirements of this provision of the law.

CPB Certification Requirements – Section V, C. EEO.

Although station officials could orally explain how it was in compliance with the Act
requirements, it did not have written policy documentation as required. These policies are
essential to ensure compliance with the Act and provide the public with information about station
operations. During our audit fieldwork the station established these policies and procedures and
formalized them in writing.

       Recommendation

3) We recommend CPB require KQED to submit to CPB its newly adopted written policies that
   explain how the station complies with open meetings, open financial records, and EEO
   requirements to ensure the policies adequately meet CPB requirements.

       KQED Response

KQED agreed with and corrected the finding and submitted its new policies to CPB.

       OIG Review and Comment

We consider this finding resolved but open pending CPB’s acceptance of KQED’s new policies.




                                               21
                                                                                 Exhibit A
                               CPB Payments to KQED
                          October 1, 2011 – September 30, 2013

              CPB Grants                   FY 2012        FY 2013        Total
TV
Community Service Grant                     $2,859,133     $3,205,524    $6,064,657
Interconnection                                 $55,616      $64,771       $120,387
Distance Service                                $24,107      $23,178        $47,285
                   Total TV                 $2,938,856     $3,293,473    $6,232,329
Radio
Unrestricted Community Service Grant        $1,080,906     $1,176,173    $2,257,079
Restricted Community Service Grant             $381,755     $415,401       $797,156
                  Total Radio               $1,462,661     $1,591,574    $3,054,235


          Total TV and Radio                $4,401,517     $4,885,047    $9,286,564

Other Grants
Quest – Content & Distribution
Grant #13763                                   $297,158             $0     $297,158
American Graduate – Public Media
Community Hub Grant #14377                      $31,500     $115,500       $147,000

FM Power Upgrade KQEI Grant #13647              $29,242             $0      $29,242
American Archives Content Inventory
Grant #14088                                    $23,047             $0      $23,047
           Total Other Grants                  $380,947     $115,500       $496,447


Total TV, Radio and Other Grants            $4,782,465     $5,000,547    $9,783,011




                                          22
                                                                                              Exhibit B
                                                  KQED
                                        TV Annual Financial Reports
                                  Years Ending September 30, 2012 and 2013

Line                            Description                           FY 2012              FY 2013
        Schedule A,
        Source of Income
        Amounts provided directly by federal government
   1                                                                            $489,999             $736,555
        agencies
1.D.    National Endowment for the Arts and Humanities                           449,999                   0
 1.E.   National Science Foundation                                               40,000              430,977
        Other Federal Funds: Dept Commerce $300,000, Other
 1.F.                                                                                 0               305,578
        $5,578
   2    Amounts Provided by Public Broadcasting Entities                    4,067,038            3,456,730
2.A.    CPB-CSG                                                             2,859,133            3,205,524
 2.B.   CPB - all other funds from CPB                                           577,221               80,437
        PBS - all payments except copyright royalties and other
 2.C.                                                                            509,733               77,764
        pass-through payments
2.D.    NPR- all payments except pass-through payments.                           44,464               25,776
 2.E.   Public broadcasting stations - all payments                               76,487               67,229
 2.F.   Other PBE funds                                                               0                    0
        Local boards and departments of education or other local
   3                                                                               6,297                5,099
        government or agency sources
        State boards and departments of education or other state
   4                                                                             119,534              131,933
        government or agency sources
   5    State colleges and universities                                           21,748                7,384
   6    Other state-supported colleges and universities                             499                    0
   7    Private colleges and universities                                         17,528               25,894
   8    Foundation and nonprofit associations                               2,015,277            2,717,700
   9    Business and Industry                                               2,893,591            2,542,781
  10    Membership and Subscription                                        16,329,752           16,085,547
        Form of Revenue
  14    Special fundraising activities (gross)                              1,084,815            1,257,788
  15    Passive income                                                           418,074              471,080
        Gains and losses on investments, charitable trusts and gift
  16    annuities and sale of other assets (other than endowment            1,835,858            1,246,049
        funds)
  17    Endowment revenue                                                   2,460,913            1,516,206
  18    Capital contributions                                                         0                    0
  19    Gifts and bequests from major individual donors                     8,421,138            6,367,098
  20    Other Direct Revenue                                                      45,523               78,249
        Total Item 3-20                                                    35,670,547           32,452,808
  21    Total Revenue                                                     $40,227,584          $36,646,093



                                                               23
                                                                                     Exhibit B (continued)
                                               KQED
                                     TV Annual Financial Reports
                               Years Ending September 30, 2012 and 2013

Line                          Description                            FY 2012                  FY 2013
           Adjustments to Revenue
  22   Federal revenue from line 1.                                            $489,999                 $736,555
  23   Public broadcasting revenue from line 2                             4,067,038                3,456,730
  24   Capital funds exclusions                                                      0                   765,000
       Other revenue on line 21 not meeting the source, form,
  25                                                                       2,380,384                      78,249
       purpose, or recipient criteria to be included as NFFS
  26   Other automatic subtractions from total revenue                     3,701,230                4,574,091
          Total Adjustments to Revenue                                    10,638,651                9,610,625
  27   Total Direct Non-Federal Financial Support                        $29,588,933              $27,035,468
       Schedule C

   1   PROFESSIONAL SERVICES (must be eligible as NFFS)                          $1,594                  $70,856

       GENERAL OPERATIONAL SERVICES (must be
   2                                                                                 0                        0
       eligible as NFFS)
   3   OTHER SERVICES (must be eligible as NFFS)                           1,131,168                     733,346

       Total in-kind contributions - services and other assets
   4   eligible as NFFS (sum of lines 1 through 3), forwards to            1,132,762                     804,202
       Line 3a. of the Summary of Non-federal Financial Support

   5   IN-KIND CONTRIBUTIONS INELIGIBLE AS NFFS                                 263,484                  236,774
       Total in-kind contributions - services and other assets
       (line 4 plus line 5), forwards to Schedule F, line 1c. Must
   6                                                                      $1,396,246               $1,040,976
       agree with in-kind contributions recognized as revenue in
       the AFS.
 TV    Schedule E
       PROGRAM SERVICES
   1   Programming and production                                        $16,372,840              $15,634,548
  A    TV CSG                                                                        0              3,205,524
   B   TV Interconnection                                                            0                    64,771
   C   Other CPB Funds                                                               0                    23,178
  D    All non-CPB Funds                                                             0             12,341,075
   2   Broadcasting and engineering                                        5,571,554                5,351,315




                                                             24
                                                                            Exhibit B (continued)
                                               KQED
                                     TV Annual Financial Reports
                               Years Ending September 30, 2012 and 2013

Line                           Description                     FY 2012               FY 2013
   2   A. TV CSG                                                           $0                    $0
       B. TV Interconnection                                                0                       0
       C. Other CPB Funds                                                   0                       0
       D. All non-CPB Funds                                                 0              5,351,315
   3   Program information and promotion                             3,074,217             3,813,158
       A. TV CSG                                                            0                       0
       B. TV Interconnection                                                0                       0
       C. Other CPB Funds                                                   0                       0
       D. All non-CPB Funds                                                 0              3,813,158
       SUPPORT SERVICES
   4   Management and general                                        4,860,440             4,602,367
       A. TV CSG                                                            0                       0
       B. TV Interconnection                                                0                       0
       C. Other CPB Funds                                                   0                       0
       D. All non-CPB Funds                                                 0              4,602,367
   5   Fund raising and membership development                       8,596,291             8,278,125
       A.TV CSG                                                             0                       0
       B. TV Interconnection                                                0                       0
       C. Other CPB Funds                                                   0                       0
       D. All non-CPB Funds                                                 0              8,278,125
   6   Underwriting and grant solicitation                           2,472,777             2,452,725
       A.TV CSG                                                             0                       0
       B.TV Interconnection                                                 0                       0
       C. Other CPB Funds                                                   0                       0
       D. All non-CPB Funds                                                 0              2,452,725
   7   Depreciation and Amortization (if not allocated)                     0                       0
       Total Expenses (sum of lines 1 to 7) must agree with
   8                                                               $40,948,119           $40,132,238
       audited financial statements




                                                          25
                                                                                            Exhibit C
                                     Radio Annual Financial Reports
                                Years Ending September 30, 2012 and 2013

Line                              Description                      FY 2012            FY 2013
            Schedule A
            Source of Income
        1   Amounts provided directly by federal government                     $0              $414,076
            Amounts provided by Public Broadcasting Entities
            (e.g. CPB, PBS, NPR, etc., including other stations
        2                                                              1,529,234                1,667,422
            and regional networks. See Guidelines for complete
            list.)
  2.A.      CPB - Community Service Grants - Unrestricted              1,080,906                1,176,173
  2.A.      CPB - Community Service Grants - Restricted                  381,755                 415,401
  2.B.      CPB-all other funds                                               3,932                    0
            PBS- all payments except copyright royalties and
  2.C.                                                                       10,880                    0
            other pass through payments.
  2.D.      NPR - all payments except pass-through payments                  16,917               16,927
  2.E.      Public broadcasting stations - all payments                      22,489               40,279
   2.F.     Other PBE funds                                                  12,355               18,642
            Local Boards and Departments of Education or other
        3                                                                    45,544              124,596
            local government
            State boards and departments of education or other
        4                                                                127,746                 123,628
            state government or agency sources
        5   State colleges and universities                              401,887                 393,421
        6   Other state-supported colleges and universities                    376                22,050
        7   Private colleges and universities                            656,109                 738,819
        8   Foundation and nonprofit associations                      3,391,893                6,634,595
        9   Business and Industry                                      7,057,390                6,767,427
       10   Memberships and subscriptions                             10,334,730                9,561,638
            Form of Revenue
       14   Special fundraising activities                               816,338                1,182,525
       15   Passive Income                                               220,294                 405,332
       16   Gains and losses on investments,                           1,310,256                1,197,184
       17   Endowment revenue                                          1,856,478                1,456,748
       18   Capital fund contributions                                           0                     0
       19   Gifts and bequests from major individual donors            3,054,128                5,144,825
       20   Other Direct Revenue                                             32,970               72,619
       21   Total Revenue                                            $30,835,373           $35,906,905




                                                              26
                                                                                        Exhibit C (continued)
                                     Radio Annual Financial Reports
                                Years Ending September 30, 2012 and 2013

Line                             Description                         FY 2012                  FY 2013
            Adjustments to Revenue
       22   Federal revenue                                                       $0                    $414,076
       23   Public broadcasting revenue                                  1,529,234                  1,667,422

            Other revenue on line 21 not meeting the source, form,
       25                                                                1,312,447                        14,463
            purpose, or recipient criteria to be included as NFFS

       26   Other automatic subtractions from total revenue              2,717,420                  3,526,492
  26.B      Special fundraising event expenses                                     0                          0
  26.D      Realized and unrealized net investment gains/losses                -7,891                    -95,932
  26.E      Unrealized investment and actuarial gains/losses             1,318,147                  1,293,116
  26.F      Realized and unrealized net investment gains/losses          1,407,164                  1,072,840
  26.G      Rental income                                                          0                      59,883
  26.H      Fees for services                                                      0                          0
  26.J      Other revenue ineligible as NFFS                                       0                     228,121
  26.K      FMV of high-end premiums                                               0                     968,464
   27.      Total Direct Non-Federal Financial Support                 $25,276,272                $30,284,452


            Schedule C, In-Kind Contributions
        1   PROFESSIONAL SERVICES                                          $8,061                        $68,078
        2   GENERAL OPERATIONAL SERVICES                                       3,808                          0
        3   OTHER SERVICES (must be eligible as NFFS)                     493,025                        286,118
   3.c      Local Advertising                                             493,025                        286,118
        4   Total In-Kind Services                                        504,894                        354,196
        5   IN-KIND CONTRIBUTIONS INELIGIBLE AS NFFS                      724,358                        698,882
            Total in-kind contributions - services and other
        6                                                               $1,229,252                 $1,053,078
            assets (line 4 plus line 5),




                                                               27
                                                                                 Exhibit C (continued)
                                   Radio Annual Financial Reports
                              Years Ending September 30, 2012 and 2013

Line                          Description                        FY 2012              FY 2013
 Radio     Schedule E, Expenses:
           Program Services
       1   Programming and production                               $9,162,914              $9,752,611
           A. Restricted Radio CSG                                          0                    415,401
           B. Unrestricted Radio CSG                                        0                   1,176,173
           C. Other CPB Funds                                               0                          0
           D. All non-CPB Funds                                             0                   8,161,037
       2   Broadcasting and engineering                              2,025,534                  2,245,520
           A. Restricted Radio CSG                                          0                          0
           B. Unrestricted Radio CSG                                        0                          0
           C. Other CPB Funds                                               0                          0
           D. All non-CPB Funds                                             0                   2,245,520
       3   Program information and promotion                         1,583,687                  2,144,900
           A. Restricted Radio CSG                                          0                          0
           B. Unrestricted Radio CSG                                        0                          0
           C. Other CPB Funds                                               0                          0
           D. All non-CPB Funds                                             0                   2,144,900
           Support Services
       4   Management and general                                    2,503,863                  2,588,831
           A. Restricted Radio CSG                                          0                          0
           B. Unrestricted Radio CSG                                        0                          0
           C. Other CPB Funds                                               0                          0
           D. All non-CPB Funds                                             0                   2,588,831
       5   Fund raising and membership development                   4,982,388                  4,749,336
           A. Restricted Radio CSG                                          0                          0
           B. Unrestricted Radio CSG                                        0                          0
           C. Other CPB Funds                                               0                          0
           D. All non-CPB Funds                                             0                   4,749,336
       6   Underwriting and grant solicitation                       1,225,402                  1,359,554
           A. Restricted Radio CSG                                          0                          0
           B. Unrestricted Radio CSG                                        0                          0
           C. Other CPB Funds                                               0                          0
           D. All non-CPB Funds                                             0                   1,359,554
       7   Depreciation and Amortization if not allocated                   0                          0
           Total Expenses (sum of lines 1 to 7) must agree
                                                                   $21,483,788             $22,840,752
           with audited financial statements



                                                            28
                                                                                        Exhibit D
                               Summary of Non-Federal Financial Support
                           For the periods ending September 30, 2012 and 2013
                   Certified by Head of Grantee and Independent Accountant’s Report

Line                   Description                 TV FY 2012        Radio FY 2012      Total FY 2012

       Summary of Non-Federal Financial Support:      TV                Radio
 1     Direct Revenue (Schedule A)                     $29,588,933        $25,276,272         $54,865,205
 2     Indirect Administrative (Schedule B)                      0                  0                   0
 3     In-Kind Contributions (Schedule C)                1,132,762            504,894           1,637,656
 4     Total Non-Federal Financial Support             $30,721,695        $25,781,166         $56,502,861



Line                   Description                 TV FY 2013        Radio FY 2013      Total FY 2013

       Summary of Non-Federal Financial Support:      TV                Radio
 1     Direct Revenue (Schedule A)                     $27,035,468        $30,284,452         $57,319,920
 2     Indirect Administrative (Schedule B)                      0                  0                   0
 3     In-Kind Contributions (Schedule C)                  804,202            354,196           1,158,398
 4     Total Non-Federal Financial Support             $27,839,670        $30,638,648         $58,478,318




                                                    29
                                                                                                       Exhibit E
                                        QUEST CPB Grant #13763
                                          Final Financial Report
                                     October 1, 2010- January 31, 2012

                     Budget Category                                Budget             Actual            Variance
         13
Revenues
CPB Grant                                                             $990,527
Grantee Guarantee                                                     1,993,511
                                             Total Revenues          $2,984,038

Expenses
KQED Project Administration Costs
Staff                                                                  $351,609          $376,349           ($24,740)
Contract Fees                                                           104,110           132,734            (28,624)
Administration/Expenses                                                  71,203             7,325              63,878
Travel                                                                    3,585            $8,642             (5,057)
                     Project Administration Costs Subtotal             $530,507          $525,050              $5,457

KQED Educational Component Costs
Staff                                                                  $176,624          $161,308             $15,316
Contract Fees                                                            19,700            14,540                5,160
Administration/Expenses                                                   7,590            17,306              (9,716)
Travel                                                                    5,150             6,119                (969)
                   Educational Component Costs Subtotal                $209,064          $199,273              $9,791

KQED Interactive Costs
Staff                                                                  $460,587          $473,297           ($12,710)
Web Development & Design                                                 30,450            21,798               8,652
Other Expenses                                                            1,000            23,175            (22,175)
Travel                                                                    1,350             1,151                 199
                                  Interactive Costs Subtotal           $493,387          $519,421           ($26,034)

KQED Television Costs
Production Supplies                                                     $72,507            $31,133           $41,374
Travel                                                                    2,750              6,483            (3,733)
Production Equipment                                                     78,502             88,044            (9,542)
Staff                                                                   472,578            529,747           (57,169)
                                   Television Costs Subtotal           $626,337          $655,407           ($29,070)



  13
    KQED did not report revenues on its interim and final financial reports submitted to CPB, the revenues included
  on this report are from the grant agreement budget. During our audit fieldwork we noted $997,642 in NSF revenues
  were included in the QUEST detail trial balance as part of the Grantee Guarantee revenues.


                                                         30
                                                                                         Exhibit E (continued)
                                          CPB Grant #13763 - QUEST
                                             Final Financial Report
                                        October 1, 2010- January 31, 2012

                        Budget Category                                    Budget       Actual       Variance

KQED Radio Content Costs
Staff                                                                        $249,966     $267,232      ($17,266)
Other Expenses                                                                      0        5,771        (5,771)
Travel                                                                          7,583        4,826          2,757
                                 Radio Content Costs Subtotal                $257,549     $277,829      ($20,280)

KQED Promotion Costs
Staff                                                                         $44,256      $36,033        $8,223
Paid Advertising                                                                9,000       16,462        (7,462)
Other Expenses                                                                  5,500        1,792          3,708
                  Promotion (Station Training) Costs Subtotal                 $58,756      $54,287        $4,469

                              Total Direct Costs without Hubs              $2,175,600   $2,231,268      ($55,668)

Indirect Costs: KQED Overhead (13%)14                                        $326,340     $334,690       ($8,350)

HUB Stations Costs
Administration/Expenses                                                      $210,000     $210,000              $0
Content (Asset) Production                                                    194,696      194,696               0
Training                                                                       14,520       14,520               0
                                    Hub Station Costs Subtotal               $419,216     $419,216              $0

Indirect Costs: KQED Overhead on Hub Stations Costs
(13%)                                                                         $62,882      $62,882              $0

                                        Total Project Expenses             $2,984,038   $3,048,057      ($64,019)




  14
       Approved dollars in budget calculated based on 15% indirect rate.


                                                            31
                                                                                                                                                             Exhibit F
                                                     KQED TV and FM Over-stated NFFS FY12 & FY13
                                                                                                                                          Total      Total FY12
Over-stated NFFS                         FM FY12      FM FY13     Total FM           TV FY12      TV FY13     Total TV      Total FY12    FY13        & FY13
Ineligible payment sources
Presenting Station Fees                                                               $ 544,276    $170,000     $714,276      $ 544,276   $170,000     $ 714,276
Contract Revenues                                                                      117,038                   117,038       117,038                   117,038
Misc Income                                $38,197                   $38,197            52,598                    52,598        90,795                    90,795
Subtotal Ineligible payments               $38,197                   $38,197          $713,912     $170,000     $883,912      $752,109    $170,000      $922,109
CPB's FY 2014 Incentive Rate of Return     6.115%       6.115%       6.115%            12.199%     12.199%      12.199%
CSG overpayment                             $2,336                    $2,336           $87,090      $20,738     $107,828       $89,426     $20,738     $ 110,164


Underwriting 3rd party fees
NPM Fees                                  $462,063     $518,442     $980,506           $89,337      $45,268     $134,605      $551,400    $563,711    $1,115,111
CPB's FY 2014 Incentive Rate of Return     6.115%       6.115%       6.115%            12.199%     12.199%      12.199%
CSG overpayment                            $28,253      $31,701      $59,954           $10,898       $5,522      $16,421       $39,152     $37,223       $76,375


Ineligible In-Kind Trade
Donor A                                    $12,750                   $12,750           $29,750                   $29,750       $42,500                   $42,500
Donor B                                                  15,945       15,945                         16,595       16,595                   $32,540        32,540
Donor C                                      3,740                     3,740            10,634                    10,634        14,374                    14,374
Subtotal Ineligible In-Kind Trade          $16,490      $15,945      $32,435           $40,384      $16,595      $56,979       $56,874     $32,540       $89,414
CPB's FY 2014 Incentive Rate of Return     6.115%       6.115%       6.115%            12.199%     12.199%      12.199%
CSG overpayment                             $1,008        $975        $1,983            $4,926       $2,024       $ 6,951       $ 5,935     $2,999       $ 8,934


Membership premiums                                     $10,641      $10,641                        $10,136      $10,136                   $20,777      $ 20,777
CPB's FY 2014 Incentive Rate of Return     6.115%       6.115%       6.115%            12.199%     12.199%      12.199%
CSG overpayment                                           $651         $ 651                         $1,236       $1,236                    $1,887        $1,887


Total over-stated NFFS                    $516,750     $545,029   $ 1,061,779         $843,633     $241,999   $ 1,085,632    $1,360,383   $787,028    $2,147,411
CPB's FY 2014 Incentive Rate of Return     6.115%       6.115%       6.115%           12.199%      12.199%      12.199%
Potential CSG overpayment/funds put to
better use                                 $31,597      $33,326      $64,924          $102,915      $29,522     $ 132,436     $134,512     $62,848      $197,360




                                                                                32
                                                                                                                                                                              Exhibit G

                                                 CPB Grant #13763- QUEST Questionable Production Grant Expenditures

                                                                                                                                                    CPB's Portion of
                  Condition                                         Unallowed Cost                                                 CPB %            Questioned Costs            Notes
     Questioned Budget Reallocations

     Net Variances less greater of $5,000 or
                                                                             $66,788                                                     32%                      $21,372           Note 1
     25% of Budget

                                                    Hub               Excess over                              Questioned                           CPB's Portion of
                    Condition                   Expenditures            $25K             Indirect Rate        Indirect Costs       CPB %            Questioned Costs            Notes
            Questioned Indirect Costs
     QUEST Hubs                                        $419,216             $269,216                 15%              $40,382            32%                      $12,922           Note 2

                                                  Payroll                                                   Indirect Costs on                       CPB's Portion of
                    Condition                   Expenditures        Unallowed Cost       Indirect Rate      Unallowed Costs        CPB %            Questioned Costs            Notes
             Questioned payroll costs
     Unsupported payroll charges                          $1,887              $1,887                                                     32%                         $604           Note 3
     (indirect on unallowed)                                                                         15%                 $283            32%                           90
     Total questioned payroll costs                       $1,887              $1,887                                     $283            32%                         $694

                                                                                           Unallowed        Total Questioned                        CPB's Portion of
                                                                    Unallowed Cost       Indirect Costs           Costs            CPB %            Questioned Costs
     Total Questioned Grant Costs                                            $68,675              $40,665            $109,340            32%                      $34,988



1)     Budget variances for actual costs over budget. Net variances less the greater of $5,000 or 25% for under budget items was $26,602, CPB’s portion was $8,513.
2)     CPB QUEST grant included sub-grants to 6 Hub stations each over $25,000, disallowed direct costs for indirect allocation over $150,000
3)     Employee 5/15/11 payroll timesheet for 72 hours identified 35 hours as QUEST project costs, we questioned $2,170 for the remaining 37 payroll hours ($1,887 payroll charge plus $283
       indirect) which were not identified as QUEST project hours.




                                                                                             33
                                                                                               Exhibit H
                                       Scope and Methodology

We performed an examination to determine KQED’s compliance with CPB Financial Reporting
Guidelines, provisions of the Communications Act, grant certification requirements, and other
grant provisions. The scope of the examination included reviews and tests of the information
reported by the station on its AFR and reconciled to audited financial statements for the years
ending September 30, 2012 and September 30, 2013, grant certifications of compliance with Act
requirements, and certifications of Final Financial Reports submitted to CPB.

We tested the allowability of NFFS claimed on KQED’s radio and TV AFRs by performing
financial reconciliations and comparisons to underlying accounting records (general ledger) and
the audited financial statements. We reviewed underwriting agreements and other
documentation supporting revenues reported. Specifically, we reviewed 58 NFFS revenue
transactions totaling $4,012,861 of $56,502,861 in FY 2012 and 59 NFFS revenue transactions
totaling $5,833,814 of $58,478,318 in FY 2013.

We reviewed the allowability of expenses charged to selected CPB grants (CSG, TV
Interconnection and Distance Service Learning, and the QUEST project). To determine that
expenditures were incurred in accordance with the grant terms, we reviewed $7,812,328 of
$9,286,546 expenses (84 percent)15 reported on the CPB CSG grants in FYs 2012 and FY 2013
and $387,677 of $2,644,850 (15 percent) of direct QUEST costs reported in FYs 2011 and 2012.
We reviewed production agreements, grant agreements, vendor invoices, and other
documentation supporting expenditures tested.

We also reviewed corporate policies, records, and documents supporting the station’s
compliance with the Act requirements to: provide advance notice of public meetings; make
financial and EEO information available to the public; operate a Community Advisory Board;
and provide documents supporting compliance with donor lists and political activities
prohibitions. We also reviewed the station’s website and policies to determine its compliance
with CPB’s new Eligibility transparency requirements. Our procedures included interviewing
station officials and its independent public accountant.

We gained an understanding of internal controls over the preparation of AFRs, cash receipts, and
cash disbursements. We also gained an understanding of KQED’s policies and procedures for
compliance with certification of eligibility requirements, Communications Act, and CPB grant
agreement terms for allowable costs. We used this information to assess risks and plan the
nature and extent of our testing to conclude on our objectives.

Our fieldwork was conducted from March 2014 through June 2014. Our examination was
performed in accordance with the Government Auditing Standards for attestation examinations.




15
  KQED expends all CSG funds (excluding Interconnection and Distance Service Learning) on PBS and NPR dues
and programming expenses


                                                    34
KQED
                                                                                                          Exhibit I




 September 12,2014

 William J. Richardson 111
 Deputy Inspector General
 Corporation for Public Broadcasting
 Office of Inspector General
 401 Ninth Street, NW
 Washington, DC 200004-2129

          Re: Examination of Community Service and Other Selected Grants KQED Inc. for the
          Period October 1, 2011 - September 30, 2013

 Dear Mr. Richardson,

  Thank you for sending Draft Report No. AS.I1403-XXXX for our review and comment.
 Following is our formal response to the draft report.

 I     OVER-STATED NFFS


          Payments Reported as NFFS:

 We interpreted the CPB guidelines consistently in our treatment of service contracts. CPB
 revised the AFR reporting format in FY2013 to clarify that fee for services were ineligible as
 NFFS and wc then correctly excluded contract revenue from NFFS.

 We acknowledge that we did not correctly report $714K of presenting station fee payments in
 2012 and 2013. We should have treated these payments as exchange transactions ineligible as
 NFFS per CPB's Principles of Accounting. The audit helped us understand more clearly the
 CPB Guidelines on eligibility as NFFS. We are revising our internal AFR documents to
 specifically identify contributions and payments that do not meet the requirement of NFFS so
 that this error does not occur again.

          Underwriting Third Party Fees similarity
 We do not agree with the proposed adjustment of $1.1 M on NPM commissions. CPB provides
 no guidance on the treatment of underwriting placement fees. ICQED, therefore, has been
 recording this underwriting revenue and related commission expense based on the economic
 substance of the transaction in compliance with Generally Accepted Accounting Principles
 (GAAP)1. We are aware that other public media stations have taken the same approach as KQED

 1FASB 650-45, Revenue Recognition - Principal Agent Consideration, provides guidance on whether an entity can
 recognize revenue based on the gross amount billed to a customer or the net amount retained (i.e., the amount billed
 to a customer less the amount paid to a supplier(or in this case, NPM)). Indicators that need to be considered when
 recognizing revenue on the gross amount billed are as follows:
              2601 Mariposa Street    kqecl.org
              San Francisco CA
              94110-1426
                                                            1
2
commission. The economic substance would not change - the total contributions are revenue,
the commissions are expenses, just like the AEs commissions.


        Unqualified In-Kind Trades
Response to first trade: KQED has been trading with the donor (         ) for over five years and
services provided by the donor have been consistent from year to year. We do not agree with the
entire proposed in-kind trade 2012 adjustment because, based on more recent valuation of the
trade from the donor for years 2013 and 2014 (see attachments, Exhibit B), approximately 50%
can be reported as NFFS and approximately 50% relate to ineligible tickets, passes and online
web advetiising costs (see attached . The contract between KQED and the donor (see attached
Exhibit C) states that, in exchange for underwriting credits to the donor, the donor provides
advertising for KQED in the form of KQED logo printed on the back of tickets and on posters,
banners, newsletters, playbills, brochures and other printed materials, including the donor's
annual donor wall. The trade agreement between the donor and KQED did not break out the
value of disallowed tickets, passes and web advertising versus the other ads, however, there is
value associated with the other ads. In the future, we will ensure that trade contracts with this
donor properly segment the value of tickets, passes and web advertisements so that we know
exactly what to include and exclude in the AFR as NFFS. In the meantime, we would like the
proposed adjustment be reduced by half to properly reflect the amount included in NFFS in error
$17,500 (($50K/2)-$7.5K already excluded))

In the 2013 AFR repmi, based on guidance from CPB staff, we excluded the entire $50,000 in-
kind trade with this donor. Since then, we have received from the donor a more detailed
valuation of the trade and it appears that we could have included all but the $21,000 related to
tickets and passes and online web advertising (see attached Exhibit B). We therefore
understated eligible NFFS in the 2013 AFR report. We kindly request that the attached
documentation be reviewed and that consideration be made to add back $29,000 to the 2013
AFR as eligible NFFS as an offset to the error of $50K above.

Response to second trade: We agree with the FY13 in-kind trade proposed audit adjustment
related to on-line web advetiisements on K.QED's website. We typically exclude donations for
on-line web advertising but this was an oversight on our part. The amount that should have been
excluded from NFFS is $32,540.

Response to third trade: We do not agree with the proposed in-kind trade audit adjustment
related to unfulfilled trades. First, CPB Financial Repmiing Guidelines do not provide guidance
on the treatment of the unused potiions of trade revenne. Second, per contract tetms, once the
agreement expires, the trade cannot be extended and, therefore, the donor cannot fulfill their
remaining trade, thus satisfying and completing the in-kind transaction. KQED provided the
underwriting credits valued at KQED's rates for the entire agreement amount. We believe that
the $14,374.75 is properly included in NFFS for FY 2012

      Membership Premiums
We do not agree with the proposed $20,777 membership benefit audit adjustment. Line 10.1 of
CPB's Financial Repotiing Guidelines says that "thank you gifts" or premiums which may



                                                 3
4
5
                         AUDIT REPORT NO. ASJ1403-1409
                                  KQED, Inc.



Exhibit A – Agreement between KQED and NPR
Exhibit B – Valuation of Trade from YBCA for FY13 and FY14
Exhibit C – Contract between KQED and YBCA
Exhibit D – OMB Circular A-133, Subrecipient & Vendor Determination
Exhibit E – Contract between Rockman et al and KQED (NCPB)
Exhibit F – Approved Budgets for NSF Quest Grant for FY 2007-2009

Procedures for Compliance with CPB Employment Statistics Reporting and Public
Availability Requirements

Procedures for Compliance with CPB Open Financial Records Requirements

KQED Open Meetings Compliance Procedures


             The above information referenced in the response from KQED
                              is available upon request


                                Contact our office at:

                                    202.879.9669

                                         or

                         Corporation for Public Broadcasting
                             Office of Inspector General
                               401 Ninth Street, NW
                                       3rd floor
                               Washington, DC 20004
